Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  MONTANA STATE MEDICAID
   FRAUD CONTROL UNIT:
    2012 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                        October 2013
                       OEI-09-12-00700
MONTANA STATE MEDICAID FRAUD CONTROL UNIT:
2012 ONSITE REVIEW
OEI-09-12-00700

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees all State Medicaid Fraud Control Units
(MFCUs or Units) with respect to Federal grant compliance. As part of this oversight,
OIG annually reviews and certifies all Units. In addition, OIG conducts onsite reviews of
selected States. These reviews assess Unit performance in accordance with the 12 MFCU
performance standards and monitor Unit compliance with Federal grant requirements,
laws, and regulations.

HOW WE DID THIS STUDY
We analyzed data from seven sources: (1) a review of documentation, policies, and
procedures related to the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of
Unit staff; (5) structured interviews with the Unit’s management and selected staff; (6) an
onsite review of case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND
From fiscal years 2010 through 2012, the Unit reported recoveries of $9.8 million,
6 convictions, and 31 civil judgments and settlements. Ninety-five percent of Unit case
files contained documentation of supervisory approval to open cases; however,
40 percent of closed case files lacked documentation of supervisory approval to close
cases. In addition, 65 percent of Unit case files lacked documentation of periodic
supervisory reviews. The Unit also did not refer sentenced providers to OIG for program
exclusion within the appropriate timeframe. Finally, the Unit’s memorandum of
understanding (MOU) with Montana’s State Medicaid agency—the Department of Public
Health and Human Services (DPHHS)—did not reflect current law and practice as
required, and the Unit did not always adhere to the MOU stipulations.

WHAT WE RECOMMEND
We recommend that the Montana Unit (1) ensure that supervisory approval to close cases
and periodic supervisory reviews are documented in Unit case files, (2) ensure that it
refers providers for exclusion to OIG within the appropriate timeframe, (3) revise its
MOU with DPHHS, and (4) adhere to the MOU provisions. The Unit concurred with all
four of our recommendations.
TABLE OF CONTENTS
Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................7 

       From FY 2010 through FY 2012, the Unit reported recoveries                                               

       of $9.8 million, 6 convictions, and 31 civil judgments and 

       settlements........................................................................................7 

       Ninety-five percent of case files contained documentation of 

       supervisory approval to open cases; however, 40 percent of 

       closed case files lacked documentation of supervisory approval 

       to close cases....................................................................................8 

       Sixty-five percent of case files lacked documentation of periodic
       supervisory reviews .........................................................................8 

       The Unit did not refer sentenced providers to OIG for program 

       exclusion within the appropriate timeframe ....................................9 

       The Unit’s MOU with DPHHS did not reflect current law and
       practice.............................................................................................9 

       The Unit did not provide training to SURS or hold bimonthly 

       meetings with SURS, as stipulated in the MOU ............................10 

       Other observation: The Unit received a limited number of                                             

       fraud referrals from DPHHS ..........................................................10 

Conclusion and Recommendations ............................................................12 

       Unit Comments and Office of Inspector General Response ..........13 

Appendixes ................................................................................................14 

       A: Performance Standards for MFCUs (Units) ............................14 

       B: Revised 2012 Performance Standards for MFCUs (Units) ......18 

       C: Referrals of Provider Fraud and Patient Abuse and Neglect 

       to the Montana MFCU by Source, FYs 2010 Through 2012 ........25 

       D: Investigations Opened and Closed by Provider Category                                              

       and Case Type, FYs 2010 Through 2012 .......................................26 

       E: Case File Review Population, Sample Size Counts, and 

       Confidence Interval Estimates .......................................................28 

       F: Unit Comments.........................................................................30 

Acknowledgments......................................................................................32 

                  OBJECTIVE
                  To conduct an onsite review of the Montana State Medicaid Fraud Control
                  Unit (MFCU or Unit).

                  BACKGROUND
                  The mission of State MFCUs, as established by Federal statute, is to
                  investigate and prosecute Medicaid provider fraud and patient abuse and
                  neglect under State law.1 Pursuant to Title XIX of the SSA, each State
                  must maintain a certified Unit unless the Secretary of Health and Human
                  Services (HHS) determines that operation of a Unit would not be
                  cost-effective because (1) minimal Medicaid fraud exists in that State; and
                  (2) the State has other, adequate safeguards to protect Medicaid
                  beneficiaries from abuse and neglect.2 Currently, 49 States and the
                  District of Columbia (States) have created such Units.3 In fiscal year
                  (FY) 2012, combined Federal and State grant expenditures for the Units
                  totaled $217.3 million, of which Federal funds represented
                  $162.9 million.4, 5 That year, the 50 Units employed 1,901 individuals.6
                  To carry out its duties and responsibilities in an effective and efficient
                  manner, each Unit must employ an interdisciplinary staff that consists of
                  at least an investigator, an auditor, and an attorney.7 The staff reviews
                  complaints provided by the State Medicaid agency and other sources and
                  determines their potential for criminal prosecution and/or civil action.
                  Collectively, in FY 2012, the 50 Units reported 1,337 convictions and




                  1
                    Social Security Act (SSA) § 1903(q).

                  2
                    SSA § 1902(a)(61). Regulations at 42 CFR 1007.11(b)(1) add that the Unit’s 

                  responsibilities may include reviewing complaints of misappropriation of patients’ 

                  private funds in residential health care facilities. 

                  3
                    North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                  Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. “Medicaid 

                  Fraud Control Units,” Office of Inspector General (OIG) web site. Accessed at 

                  http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp on May 21, 2013. 

                  4
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/ on

                  March 19, 2013. 

                  5
                    All FY references in this report are based on the Federal FY (October 1 through
                  September 30).

                  6
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. 

                  7
                    SSA § 1903(q)(6) and 42 CFR § 1007.13.


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                           1
                  823 civil judgments and settlements. That year, the Units reported
                  recoveries of approximately $2.9 billion.8
                  Units are required to have either statewide authority to prosecute cases or
                  formal procedures to refer suspected criminal violations to an office with
                  such authority.9 In Montana and 43 other States, the Units are located
                  within offices of State Attorneys General that have this authority. In the
                  remaining six States, the Units are located within other State agencies;
                  generally, such Units must refer cases to offices with prosecutorial
                  authority.10 Additionally, each Unit must be a single, identifiable entity of
                  State government, distinct from the State Medicaid agency, and each Unit
                  must develop a formal agreement—e.g., a memorandum of understanding
                  (MOU)—that describes the Unit’s relationship with that agency.11
                  Oversight of the MFCU Program
                  The Secretary of HHS delegated to OIG the authority both to annually
                  certify the Units and to administer grant awards to reimburse States for a
                  percentage of their costs of operating them.12 All Units are currently funded
                  by the Federal Government on a 75-percent matching basis, with the States
                  contributing the remaining 25 percent.13 To receive Federal reimbursement,
                  each Unit must submit an initial application to OIG.14 OIG reviews the
                  application and notifies the Unit whether it is approved and the Unit is
                  certified. Approval and certification are valid for a 1-year period; the Unit
                  must be recertified each year thereafter.15
                  Pursuant to Title XIX of the SSA, States must operate Units that effectively
                  carry out their statutory functions and meet program requirements.16 OIG
                  developed and issued 12 performance standards to define the criteria that
                  OIG applies in assessing whether a Unit is effectively carrying out statutory

                  8
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. Pursuant to 42 CFR § 1007.17, Units report the total amount of recovered 

                  funds in their annual reports to OIG. “Recoveries” are defined as the amount of money

                  that defendants are required to pay as a result of a judgment or settlement in criminal and 

                  civil cases, and may not reflect actual collections. Recoveries may involve cases that

                  include participation by other Federal and State agencies. 

                  9
                    SSA § 1903(q)(1).

                  10
                     In States with a Unit, the Unit shares responsibility for protecting the integrity of the 

                  Medicaid program with the section of the State Medicaid agency that functions as the

                  Program Integrity Unit. Some States also employ a Medicaid Inspector General who 

                  conducts and coordinates anti-fraud, waste, and abuse activities for the State agency. 

                  11
                     SSA § 1903(q)(2) and 42 CFR § 1007.9(d). 

                  12
                     The portion of funds reimbursed to States by the Federal Government for its share of

                  expenditures for the Federal Medicaid program, including the MFCUs, is referred to as 

                  Federal Financial Participation.

                  13
                     SSA § 1903(a)(6)(B).

                  14
                     42 CFR § 1007.15(a). 

                  15
                     42 CFR § 1007.15(b) and (c). 

                  16
                     SSA § 1902(a)(61).



Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                               2
                  functions and meeting program requirements.17 Examples include
                  maintaining an adequate caseload through referrals from several sources,
                  maintaining an annual training plan for all three of the professional
                  disciplines (i.e., for auditors, investigators, and attorneys), and establishing
                  policy and procedures manuals to reflect the Unit’s operations. See
                  Appendix A for a complete list of the performance standards.18
                  Montana Unit
                  The Unit is an autonomous entity within the Montana Department of
                  Justice’s Division of Criminal Investigation and has the authority to
                  prosecute cases of Medicaid fraud and of patient abuse and neglect. At the
                  time of our review, the Unit had eight employees—six in the State capital
                  of Helena, and one investigator located in each of the two satellite
                  offices.19 The Unit Director serves as the Chief Investigator and directly
                  supervises all Unit employees.
                  The Unit receives referrals of provider fraud from the State Medicaid
                  agency—the Montana Department of Public Health and Human Services
                  (DPHHS)—and from Federal agencies, such as OIG. The Unit receives
                  patient abuse and neglect referrals from DPHHS’s Certification Bureau
                  and from Adult Protective Services. In addition, the Unit receives both
                  types of referrals from other State and local agencies, from healthcare
                  providers, and from the public through a Medicaid Fraud Control Unit
                  hotline and a fraud-reporting form located on the Montana Department of
                  Justice’s Web site. 20 For additional information on Unit referrals, see
                  Appendix C.
                  Upon receiving a referral, Unit employees gather background information
                  on it and forward it to the Unit Director for review. The Director screens
                  the referral and decides whether to open it as a case or refer it to another
                  agency. For additional information on the Unit’s opened and closed
                  investigations, including a breakdown by case type and provider category,
                  see Appendix D.
                  After the Director opens a referral for investigation, a Unit auditor gathers
                  preliminary data on the case and the Director assigns the case to an

                  17
                     59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on
                  November 22, 2011.
                  18
                     Prior to the time of our onsite data collection (December 2012), OIG published a
                  revision of the performance standards, 77 Fed. Reg. 32645 (June 1, 2012). See
                  Appendix B for a complete list of the revised performance standards. Unless otherwise
                  noted, the performance standards referred to in this report were published in 1994 and
                  were in effect during most of our review period (FYs 2010 through 2012).
                  19
                     The Unit Director, Chief Attorney, two auditors, one investigator, and an
                  administrative assistant are located in Helena. 

                  20
                     The Unit occasionally will open cases that were not formally referred by an outside

                  source. For example, a case may be brought to the Unit’s attention by the media.



Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                             3
                  investigator. The Unit may open a case and pursue it through a variety of
                  actions, including criminal prosecution, civil action, or a combination of
                  the two. The Unit may close a case for a variety of reasons, including but
                  not limited to resolving it through criminal and/or civil action or referring
                  it to another agency.
                  Previous Review
                  In 2007, OIG conducted an onsite review of the Montana Unit and found
                  that a Unit attorney and a Unit administrative support staff member
                  “regularly engaged” in non-Unit activities. This 2012 onsite review of the
                  Unit found no indication that this issue persisted.

                  METHODOLOGY
                  We analyzed data from seven sources: (1) a review of documentation,
                  policies, and procedures related to the Unit’s operations, staffing, and
                  caseload for FYs 2010 through 2012; (2) a review of financial
                  documentation for FYs 2010 through 2012; (3) structured interviews with
                  key stakeholders; (4) a survey of Unit staff; (5) structured interviews with
                  the Unit’s management and selected staff; (6) an onsite review of case
                  files that were open in FYs 2010 through 2012; and (7) an onsite review of
                  Unit operations.
                  We analyzed data from all seven sources to describe the caseload and
                  assess the performance of the Unit. We also analyzed the data to identify
                  any opportunities for improvement and any instances in which the Unit
                  did not meet the performance standards or was not operating in
                  accordance with laws, regulations, and policy transmittals.21 In addition,
                  we noted practices that appeared to benefit the Unit. We based these
                  observations on statements from Unit staff, data analysis, and our own
                  judgment. We did not independently verify the effectiveness of these
                  practices, but included the information because it may be useful to other
                  Units in their operations.
                  We conducted the onsite review in December 2012.
                  Data Collection and Analysis
                  Review of Unit Documentation. We collected and reviewed
                  documentation, policies, and procedures related to the Unit’s operations,
                  staffing, and cases, including its annual reports, quarterly statistical
                  reports, and responses to recertification questionnaires. We reviewed this
                  documentation to determine how the Unit investigates and prosecutes
                  Medicaid cases. The documentation also included data such as the


                  21
                    All relevant regulations, statutes, and policy transmittals are available online at
                  http://oig.hhs.gov.


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                           4
                  number of referrals received by the Unit and the number of investigations
                  opened and closed. Additionally, we confirmed with the Unit Director
                  that the information we had was current at the time of our review and, as
                  necessary, requested any additional data or clarification that was needed.
                  Review of Financial Documentation. We reviewed Unit financial
                  practices to determine compliance with applicable laws and regulations
                  and to determine the need for additional internal controls. Prior to the
                  onsite review, we reviewed the Unit’s financial policies and procedures,
                  its response to an internal control questionnaire, and MFCU grant-related
                  documents such as financial status reports. During the onsite review, we
                  reviewed a sample of the Unit’s purchase and travel transactions. In
                  addition, we reviewed reviewed vehicle records, the equipment inventory,
                  and a sample of time and effort records.
                  Interviews With Key Stakeholders. We conducted structured interviews
                  with seven individual stakeholders among four agencies who were
                  familiar with Unit operations. Specifically, we interviewed DPHHS’s
                  Surveillance Utilization Review System (SURS) Supervisor; DPHHS’s
                  Certification Bureau Chief; an Assistant U.S. Attorney based in Montana;
                  an investigator for the U.S. Attorney’s Office based in Montana; the
                  Investigations Bureau Chief22 for the Division of Criminal Investigation of
                  the Montana Department of Justice; an OIG Assistant Special Agent in
                  Charge for the State of Montana; and an OIG Special Agent who has
                  worked with the Unit. These interviews focused on the Unit’s interaction
                  with external agencies, Unit operations, opportunities for improvement,
                  and any practices that appeared to benefit the Unit and that may be useful
                  to other Units in their operations.
                  Survey of Unit Staff. We conducted an electronic survey of Unit staff.23
                  We requested and received responses from five nonmanagerial staff
                  members, for a 100-percent response rate.24 Our questions focused on
                  operations of the Unit, opportunities for improvement, and practices that
                  appeared to benefit the Unit and that may be useful to other Units in their
                  operations. The survey also sought information about the Unit’s
                  compliance with applicable laws, regulations, and policy transmittals.
                  Interviews With Unit Management and Selected Staff. We conducted
                  structured interviews with the Unit’s Director (Chief Investigator), Chief
                  Attorney, and an auditor. We asked them to provide us with additional

                  22
                     The Investigations Bureau Chief supervises the Unit Director.
                  23
                     We did not survey one of the Unit’s nonmanagerial auditors because we interviewed 

                  that auditor onsite. 

                  24
                     This report uses the terms “management” and “supervisors” interchangeably. 

                  “Nonmanagement” employees are Unit staff members who have no supervisory

                  authority. 



Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                            5
                  information necessary to better understand the Unit’s operations, identify
                  opportunities for improvement, identify practices that appeared to benefit
                  the Unit and that may be useful to other Units in their operations, and
                  clarify information obtained from other data sources.
                  Onsite Review of Case Files. We selected a simple random sample of
                  55 case files from the 105 cases that were open at any point from
                  FY 2010 through FY 2012.25 The design of this sample allowed us to
                  estimate the percentage of all 105 cases with various characteristics at the
                  95-percent confidence level. We reviewed these 55 sampled case files and
                  the Unit’s processes for monitoring the status and outcomes of cases.
                  From these 55 case files, we selected another simple random sample of
                  35 files and conducted a more comprehensive review to identify any other
                  potential issues. For population and sample size counts, as well as
                  confidence interval estimates, see Appendix E.
                  Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                  operations. Specifically, we observed intake of referrals, data analysis
                  operations, security of data and case files, and the general functioning of
                  the Unit.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.26




                  25
                     This figure includes cases opened before FY 2010 that remained open at some point
                  during FYs 2010–2012. 

                  26
                     Full text of these standards is available online at

                  http://www.ignet.gov/pande/standards/oeistds11.pdf. 



Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                          6
                  FINDINGS
                  From FY 2010 through FY 2012, the Unit reported
                  recoveries of $9.8 million, 6 convictions, and 31 civil
                  judgments and settlements
                  From FY 2010 through FY 2012, the Unit reported total criminal and civil
                  recoveries of $9.8 million—an annual average of $3.3 million (see
                  Table 1). Of the $9.8 million in recoveries, the Unit attributed
                  $9.7 million to civil recoveries and $77,000 to criminal recoveries.
                  “Global” case judgments and settlements accounted for $9.5 million of the
                  total civil recoveries and global cases accounted for 4 of the Unit’s
                  105 cases over the 3-year period.27 The Unit’s annual average
                  expenditures for FYs 2010 through 2012 were $697,000.28
                  Table 1: Montana Unit Reported Recovered Funds, FYs 2010 Through 2012
                                                                                                   3-Year      Annual
                                                 FY 2010        FY 2011          FY 2012
                                                                                                    Total     Average*

                    Reported Criminal
                                                 $58,294          $5,916          $13,437         $77,647      $25,882
                    Recoveries

                    Global
                                              $1,326,958     $2,950,573       $5,222,030        $9,499,561   $3,166,520
                    Recoveries

                    Non-Global Civil
                                                 $59,978               $0       $140,423         $200,401      $66,800
                    Recoveries

                    Total Reported
                                              $1,445,230     $2,956,489       $5,375,890        $9,777,609   $3,259,203
                    Recoveries

                    Total
                                                $657,113       $724,219         $710,704        $2,092,036    $697,345
                    Expenditures

                  Source: OIG review of Unit self-reported QSR and other data, FYs 2010–2012.
                  *Averages in this table are rounded.


                  From FY 2010 through FY 2012, the Unit Reported 6 Convictions and
                  31 Civil Judgments and Settlements. From FY 2010 through FY 2012, the
                  Unit reported 6 convictions and 31 civil judgments and settlements—an
                  annual average of 2 convictions and 10.3 civil judgments and settlements
                  (see Table 2).




                  27
                     Unit-reported recoveries include funds recovered from multi-State, or “global,” civil
                  false claims cases, both those worked directly by the Unit and those worked by staff from
                  other Units.
                  28
                     The figures presented in this finding are rounded.


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                                       7
                  Table 2: Unit Convictions and Civil Judgments and/or Settlements,
                  FYs 2010 Through 201229
                                                                                                     3-Year   Annual
                                                              FY 2010       FY 2011       FY 2012
                                                                                                      Total   Average

                    Convictions                                        2            0            4        6         2


                    Civil Judgments and/or Settlements               11            10           10       31      10.3


                  Source: OIG review of Unit self-reported QSR and other data, FYs 2010–2012.


                  From FYs 2010 through 2012, the Unit opened an average of 34 cases
                  annually—an average of 26 provider fraud and 9 patient abuse and neglect
                  cases. From FYs 2010 through 2012, the Unit closed an average of
                  27 cases annually, with an average of 19 provider fraud and 8 patient
                  abuse and neglect cases.30 From FYs 2010 through 2012, the Unit
                  received an average of 126 referrals annually—an average of 109 provider
                  fraud and 17 patient abuse and neglect referrals.
                  Ninety-five percent of case files contained
                  documentation of supervisory approval to open cases;
                  however, 40 percent of closed case files lacked
                  documentation of supervisory approval to close cases
                  According to Performance Standard 6(b), Unit supervisors should approve
                  the opening and closing of cases to ensure a continuous case flow and the
                  timely completion of cases. Supervisory approval to open and close cases
                  demonstrates that Unit supervisors are monitoring the intake of cases and
                  the timeliness of case resolutions, thereby promoting the efficiency and
                  effectiveness of Unit staff. The Unit documented supervisory approval to
                  open cases in 95 percent of the case files. However, 40 percent of closed
                  case files lacked documented supervisory approval to close cases.
                  Sixty-five percent of case files lacked documentation
                  of periodic supervisory reviews
                  According to Performance Standard 6(c), supervisory reviews should be
                  “conducted periodically and noted in the case file” to ensure timely case
                  completion.31 Sixty-two percent of Unit case files lacked documentation
                  of at least one supervisory review and 65 percent of the case files lacked
                  documentation of additional, periodic supervisory reviews.


                  29
                     Civil Judgments and/or Settlements include those received from global cases. 

                  30
                     Closures include multiple cases opened before FY 2010. 

                  31
                     For the purposes of this report, supervisory approval to open and close a case does not

                  constitute a supervisory “review.” “Periodic supervisory reviews” indicates that a 

                  supervisor reviewed a case more than once between the case’s opening and closing and 

                  documented those reviews in the case file.



Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                                     8
                  Unit management and staff reported that all open cases are reviewed
                  during monthly staff meetings and that the Unit Director is informally
                  involved in all cases. Unit management reported that for some of the
                  Unit’s complex cases, it documents significant case activity on a “case
                  activity tracking” sheet to ensure that these cases move forward in a timely
                  manner.
                  The Unit did not refer sentenced providers to OIG for
                  program exclusion within the appropriate timeframe
                  According to Performance Standard 8(d), when a convicted provider is
                  sentenced, the Unit should send a referral letter to OIG “within 30 days or
                  other reasonable time period” for the purpose of program exclusion.32 The
                  Unit reported six total convictions within the review period but referred
                  none of these sentenced providers to OIG for program exclusion within the
                  appropriate timeframe. However, after we determined that the Unit did not
                  refer these providers to OIG for exclusion within the appropriate
                  timeframe, the Unit provided documentation indicating it later referred the
                  providers to OIG for exclusion.33
                  The Unit’s MOU with DPHHS did not reflect current law
                  and practice
                  According to Performance Standard 10, Units should periodically review
                  their MOUs with the State Medicaid agency to ensure that the MOUs reflect
                  current law and practice. As required by Federal regulations, the Unit had
                  an MOU (dated July 2010) with DPHHS/SURS. 34 However, the MOU did
                  not include payment suspension provisions for providers who are subject to
                  an ongoing investigation related to credible allegations of fraud.35 Federal
                  regulations also require that the MOU include a provision requiring the
                  State Medicaid agency to provide the Unit with “access to, and free copies
                  of, any records or information kept by the agency or its contractors.”36
                  However, contrary to this regulation, an MOU provision stipulates that “any
                  cost associated with MFCU special requests which require system changes



                  32
                     Pursuant to 42 U.S.C. § 1320a-7(a), OIG excludes from participation in Federal health

                  care programs any person or entity convicted of a criminal offense related to the delivery 

                  of an item or service under the Medicaid program or to the neglect or abuse of patients in

                  residential health care facilities. No payment may be made by Medicaid, Medicare, or 

                  other Federal health care programs for an item or service provided, ordered, or prescribed

                  by an excluded individual or entity. 42 CFR § 1001.1901.

                  33
                     We made this determination in September 2012. The documentation provided by the

                  Unit indicated that the providers were referred for exclusion in October 2012.

                  34
                     42 CFR § 1007.9(d).

                  35
                     42 CFR §§ 455.23 and 1007.9(e). 

                  36
                     42 CFR § 455.21(a)(2)(i) and 42 CFR § 1007.9(d). 



Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                             9
                  will be paid by the MFCU.”37 Both the Unit Director and SURS staff
                  reported, however, that SURS has never charged the Unit for data. Unit
                  management reported that it is working with DPHHS to issue a revised
                  MOU that incorporates the payment suspension provision and removes the
                  stipulation that the Unit may be charged for special data requests.
                  The Unit did not provide training to SURS or hold
                  bimonthly meetings with SURS, as stipulated in the
                  MOU
                  Pursuant to the Unit’s MOU with DPHHS, the Unit “agrees to provide
                  training specific to Medicaid provider fraud detection to SURS at least
                  once a year.”38 However, DPHHS/SURS staff reported that Unit trainings
                  to SURS are “few and far between,” and the Unit Director reported that
                  the Unit has not provided training to SURS in “a couple of years.”
                  Another provision in the MOU stipulates that the Unit and SURS will
                  meet “at least every two months” for various purposes, including
                  discussing potential referrals and open cases. Both the Unit Director and
                  SURS staff reported, however, that the two agencies had not met in over
                  6 months. SURS staff reported that the two agencies had not met because
                  SURS was busy working on its Medicaid Management Information
                  System.
                  Other observation: The Unit received a limited
                  number of fraud referrals from DPHHS
                  Pursuant to Federal regulations, a State Medicaid agency must refer all
                  cases of suspected fraud to the Unit in its State.39 According to the Unit’s
                  MOU with DPHHS, DPHHS “will, at the earliest practical opportunity in
                  its preliminary investigation, advise the MFCU of any suspected fraud.”40
                  However, the Unit reported that DPHHS/SURS sent only seven total fraud
                  referrals to the Unit during the review period, including only one referral
                  in FY 2012.41 According to SURS staff, any referral to the Unit was

                  37
                     Memorandum of Understanding between the Montana Department of Justice and the 

                  Montana Department of Public Health and Human Services, Part III, § A and B.

                  38
                     Ibid., Part III, § E. 

                  39
                     42 CFR § 455.21(a)(1).

                  40
                     Memorandum of Understanding between the Montana Department of Justice and the
                  Montana Department of Public Health and Human Services, Part III, § E.
                  41
                     The Medicaid Integrity Group (MIG) of the Centers for Medicare & Medicaid Services
                  conducts periodic onsite program integrity reviews of State Medicaid programs. In 2010,
                  the MIG conducted a review of DPHHS. The resulting July 2011 MIG report noted that
                  DPHHS referred very few cases to the Unit. This report recommended that DPHHS
                  “develop more suspected fraud cases for the MFCU,” and that DPHHS and the Unit
                  should meet to discuss any barriers to the successful prosecution of fraud. MIG,
                  Montana Comprehensive Program Integrity Review Final Report (July 2011), pp. 8–9.
                  Accessed at http://www.cms.gov/Medicare-Medicaid-Coordination/Fraud-
                  Prevention/FraudAbuseforProfs/Downloads/MTfy10.pdf on May 21, 2013.


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                       10
                  considered to be a “credible allegation of fraud” and therefore subject to
                  provider payment suspension.42 SURS staff further reported that all such
                  referrals must be approved by a DPHHS administrator and, therefore,
                  unless the referral clearly constituted a credible allegation of fraud, SURS
                  was reluctant to make any referrals to the Unit.




                  42
                     A State Medicaid agency must suspend all Medicaid payments to a provider if the
                  agency determines that the provider is under investigation for a credible fraud allegation,
                  unless the agency or a law enforcement entity has good cause not to suspend payments or
                  to suspend them only in part. 42 CFR § 455.23(a)(1).
                  42
                     A State Medicaid agency must suspend all Medicaid payments to a provider if the
                  agency determines that the provider is under investigation for a credible fraud allegation,
                  unless the agency or a law enforcement entity has good cause not to suspend payments or
                  to suspend them only in part. 42 CFR § 455.23(a)(1).


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                           11
                  CONCLUSION AND RECOMMENDATIONS
                  From FY 2010 through FY 2012, the Unit reported recoveries of
                  $9.8 million, 6 convictions, and 31 civil judgments and settlements. Unit
                  case files consistently contained documentation of supervisory approval to
                  open cases.
                  Other opportunities for Unit improvement exist. Specifically, Unit case
                  files did not consistently contain documentation of supervisory approval to
                  close cases or documentation of periodic supervisory reviews. In addition,
                  the Unit did not refer sentenced providers to OIG for program exclusion
                  within the appropriate timeframe. The Unit’s MOU with DPHHS did not
                  reflect current law and practice, and the Unit did not always adhere to the
                  MOU stipulations. Finally, the Unit received a limited number of fraud
                  referrals from DPHHS. With the exception of the MOU stipulation that
                  the Unit may be charged for special data requests, we found no evidence
                  of noncompliance with applicable laws, regulations, and policy
                  transmittals.
                  We recommend that the Montana Unit:
                  Ensure that supervisory approval to close cases and periodic
                  supervisory reviews are documented in Unit case files
                  The Unit could use its case activity tracking sheets to document both
                  periodic supervisory case reviews and supervisory approval to close cases
                  in all case files.
                  Ensure that letters referring providers for exclusion are
                  submitted to OIG within the appropriate timeframe
                  The Unit should ensure that letters referring providers for exclusion are
                  sent within 30 days of defendant sentencing, consistent with the
                  2012 Performance Standard 8 (f).
                  Revise its MOU with DPHHS to reflect current law and practice
                  The Unit should revise its MOU with DPHHS to include payment
                  suspension provisions for providers who are subject to an ongoing
                  investigation related to credible allegations of fraud. In addition, the Unit
                  should revise its MOU with DPHHS to remove the stipulation that the
                  Unit may be charged for data requests.
                  Ensure that it consistently adheres to its MOU
                  Consistent with the stipulations of the MOU between the Unit and
                  DPHHS, the Unit should provide Medicaid provider fraud detection
                  training to DPHHS/SURS on an annual basis and meet with
                  DPHHS/SURS at least bimonthly.




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)               12
                  UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  The Unit concurred with the four report recommendations.
                  Regarding our first recommendation, the Unit adopted a case review form
                  that will be attached to each open case file. The Unit also amended its
                  policies and procedures manual to reflect supervisory responsibility to
                  approve the opening and closing of cases, as well as to document periodic
                  case file reviews in the case files.
                  Regarding our second recommendation, the Unit referred all omitted
                  convictions to OIG for program exclusion. The Unit also amended its
                  policies and procedures manual to reflect the Unit Director’s responsibility
                  to ensure that all convictions are reported to OIG for program exclusion.
                  Regarding our third recommendation, the Unit created a revised draft of its
                  MOU with DPHHS that incorporates the suggested revisions mentioned in
                  this report.
                  Regarding our fourth recommendation, the Unit has established a training
                  plan with DPHHS/SURS that requires quarterly cross-training between the
                  two agencies, beginning in January 2014.
                  The full text of the Unit’s comments is provided in Appendix F. We did
                  not make any changes to the report as a result of the Unit’s comments.




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)            13
                  APPENDIX A
                  Performance Standards for MFCUs (Units)43
                  1. 	A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                       a.	 The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                       b.	 The Unit must be separate and distinct from the single State
                           Medicaid agency.
                       c.	 The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                       d.	 The Unit must submit annual reports, with appropriate 

                           certifications, on a timely basis.

                       e.	 The Unit must submit quarterly reports on a timely basis.
                      f.	 The Unit must comply with the Americans with Disabilities Act,
                          the Equal Employment opportunity requirements, the Drug Free
                          workplace requirements, Federal lobbying restrictions, and other
                          such rules that are made conditions of the grant.
                  2. 	A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Does the Unit employ the number of staff that was included in the
                           Unit's budget as approved by the Office of Inspector General
                           (OIG)?
                       b.	 Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit's budget?
                       c.	 Does the Unit employ a reasonable size of professional staff in
                           relation to the State's total Medicaid program expenditures?
                      d.	 Are the Unit office locations established on a rational basis and are
                          such locations appropriately staffed?
                  3. 	A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:


                  43
                    59 Fed. Reg. 49080 (Sept. 26, 1994). These performance standards were in effect
                  during most of our review period and precede the performance standards published in
                  June 2012.


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                         14
                       a.	 Does the Unit have policy and procedure manuals?
                      b.	 Is an adequate, computerized case management and tracking
                          system in place?
                  4. A Unit should take steps to ensure that it maintains an adequate
                      workload through referrals from the single State agency and other
                      sources. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud 

                           referrals? 

                       c.	 Does the Unit generate any of its own fraud cases?
                      d.	 Does the Unit ensure that adequate referrals of patient abuse
                          complaints are received from all sources?
                  5. 	A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the 

                           proportion of Medicaid expenditures for particular provider 

                           groups? 

                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                      e.	 Does the Unit consider civil and administrative remedies when
                          appropriate?
                  6. 	A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                 15
                  7. A Unit should have a process for monitoring the outcome of cases.
                     In meeting this standard, the following performance indicators will be
                     considered:
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                      h.	 The numbers of administrative sanctions imposed.
                  8. 	A Unit will cooperate with the OIG and other federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                      d.	 Does the Unit transmit to the OIG, for purposes of program
                          exclusions under section 1128 of the Social Security Act, reports
                          of convictions, and copies of Judgment and Sentence or other
                          acceptable documentation within 30 days or other reasonable time
                          period?
                  9. 	A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State's statutes when necessary and appropriate to
                           do so?




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                16
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?
                      c.	 Does the Unit monitor actions taken by State legislature or State
                          Medicaid agency in response to recommendations?
                  10. 	A Unit should periodically review its memorandum of
                      understanding (MOU) with the single State Medicaid agency and
                      seek amendments, as necessary, to ensure it reflects current law
                      and practice. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                      d.	 Does the MOU address the Unit’s responsibility to make program
                          recommendations to the Medicaid agency and monitor actions
                          taken by the Medicaid agency concerning those recommendations?
                  11. The Unit director should exercise proper fiscal control over the
                      Unit resources. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                      c.	 Does the Unit apply generally accepted accounting principles in its
                          control of Unit funding?
                  12. A Unit should maintain an annual training plan for all
                      professional disciplines. In meeting this standard, the following
                      performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff aid to the mission of the
                           Unit?




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)               17
                  APPENDIX B
                  Revised 2012 Performance Standards for MFCUs (Units)44
                  1. 	A unit conforms with all applicable statutes, regulations, and
                      policy directives, including:
                         a.	 Section 1903(q) of the Social Security Act, containing the basic
                             requirements for operation of a MFCU;
                         b.	 Regulations for operation of a MFCU contained in 42 CFR 

                             part 1007; 

                         c.	 Grant administration requirements at 45 CFR part 92 and Federal
                             cost principles at 2 CFR part 225;
                         d.	 OIG policy transmittals as maintained on the OIG Web site; and
                         e.	 Terms and conditions of the notice of the grant award.
                  2. 	A Unit maintains reasonable staff levels and office locations in
                      relation to the State’s Medicaid program expenditures and in
                      accordance with staffing allocations approved in its budget.
                         a.	 The Unit employs the number of staff that is included in the Unit’s
                             budget estimate as approved by OIG.
                         b.	 The Unit employs a total number of professional staff that is
                             commensurate with the State’s total Medicaid program
                             expenditures and that enables the Unit to effectively investigate
                             and prosecute (or refer for prosecution) an appropriate volume of
                             case referrals and workload for both Medicaid fraud and patient
                             abuse and neglect.
                         c.	 The Unit employs an appropriate mix and number of attorneys,
                             auditors, investigators, and other professional staff that is both
                             commensurate with the State’s total Medicaid program
                             expenditures and that allows the Unit to effectively investigate and
                             prosecute (or refer for prosecution) an appropriate volume of case
                             referrals and workload for both Medicaid fraud and patient abuse
                             and neglect.
                         d.	 The Unit employs a number of support staff in relation to its
                             overall size that allows the Unit to operate effectively.
                         e.	 To the extent that a Unit maintains multiple office locations, such
                             locations are distributed throughout the State, and are adequately
                             staffed, commensurate with the volume of case referrals and
                             workload for each location.

                  44
                       77 Fed. Reg. 32645 (June 1, 2012).


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                  18
                  3. 	A Unit establishes written policies and procedures for its
                      operations and ensures that staff are familiar with, and adhere to,
                      policies and procedures.
                       a.	 The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance
                           standards, for the investigation and (for those Units with
                           prosecutorial authority) prosecution of Medicaid fraud and patient
                           abuse and neglect.
                       b.	 The Unit adheres to current policies and procedures in its 

                           operations. 

                       c.	 Procedures include a process for referring cases, when appropriate,
                           to Federal and State agencies. Referrals to State agencies,
                           including the State Medicaid agency, should identify whether
                           further investigation or other administrative action is warranted,
                           such as the collection of overpayments or suspension of payments.
                       d.	 Written guidelines and manuals are readily available to all Unit
                           staff, either online or in hard copy.
                       e.	 Policies and procedures address training standards for Unit 

                           employees. 

                  4. 	A Unit takes steps to maintain an adequate volume and quality of
                      referrals from the State Medicaid agency and other sources.
                       a.	 The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                       b.	 The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                       c.	 The Unit provides timely information to the State Medicaid or
                           other agency when the Medicaid or other agency requests
                           information on the status of MFCU investigations, including when
                           the Medicaid agency requests quarterly certification pursuant to
                           42 CFR 455.23(d)(3)(ii).
                       d.	 For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit
                           takes steps, such as the development of operational protocols, to
                           ensure that pertinent agencies refer such cases to the Unit,


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                 19
                            consistent with patient confidentiality and consent. Pertinent
                            agencies vary by State but may include licensing and certification
                            agencies, the State Long Term Care Ombudsman, and adult
                            protective services offices.
                       e.	 The Unit provides timely information, when requested, to those
                           agencies identified in (D) above regarding the status of referrals.
                       f.	 The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                  5. 	A Unit takes steps to maintain a continuous case flow and to
                      complete cases in an appropriate timeframe based on the
                      complexity of the cases.
                       a.	 Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       b.	 Supervisors approve the opening and closing of all investigations
                           and review the progress of cases and take action as necessary to
                           ensure that each stage of an investigation and prosecution is
                           completed in an appropriate timeframe.
                       c.	 Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                  6. 	A Unit’s case mix, as practicable, covers all significant provider
                      types and includes a balance of fraud and, where appropriate,
                      patient abuse and neglect cases.
                       a.	 The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                       b.	 For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a
                           commensurate number of managed care cases in its mix of cases.
                       c.	 The Unit seeks to allocate resources among provider types based
                           on levels of Medicaid expenditures or other risk factors. Special
                           Unit initiatives may focus on specific provider types.
                       d.	 As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit
                           has original jurisdiction to investigate or prosecute patient abuse
                           and neglect cases.
                       e.	 As part of its case mix, the Unit seeks to maintain, consistent with
                           its legal authorities, a balance of criminal and civil fraud cases.




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                  20
                  7. 	A Unit maintains case files in an effective manner and develops a
                      case management system that allows efficient access to case
                      information and other performance data.
                       a.	 Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                       b.	 Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                       c.	 Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                       d.	 Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                       e.	 The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                       f.	 The Unit has an information management system that allows for
                           the monitoring and reporting of case information, including the
                           following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a
                                     case referred by the State Medicaid agency or other
                                     referring source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the
                                     number of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of
                                     individuals or entities charged, and the number of pending
                                     prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution
                                     ordered in a criminal case and the dollar amount of
                                     recoveries and the types of relief obtained through civil
                                     judgments or prefiling settlements.




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                  21
                  8. 	A Unit cooperates with OIG and other Federal agencies in the
                      investigation and prosecution of Medicaid and other health care
                      fraud.
                       a.	 The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in
                           the State.
                       b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations,
                           and cases that have been referred to the Unit by OIG or another
                           Federal agency.
                       c.	 The Unit makes available, to the extent authorized by law and
                           upon request by Federal investigators and prosecutors, all
                           information in its possession concerning provider fraud or fraud in
                           the administration of the Medicaid program.
                       d.	 For cases that require the granting of “extended jurisdiction” to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                       e.	 For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                       f.	 The Unit transmits to OIG, for purposes of program exclusions
                           under section 1128 of the Social Security Act, all pertinent
                           information on MFCU convictions within 30 days of sentencing,
                           including charging documents, plea agreements, and sentencing
                           orders.
                       g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                  9. 	A Unit makes statutory or programmatic recommendations, when
                      warranted, to the State government.
                       a.	 The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation
                           of the Unit, including amendments to the enforcement provisions
                           of the State code.
                       b.	 The Unit, when warranted and appropriate, makes other regulatory
                           or administrative recommendations regarding program integrity
                           issues to the State Medicaid agency and to other agencies


Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                22
                            responsible for Medicaid operations or funding. The Unit monitors
                            actions taken by the State legislature and the State Medicaid or
                            other agencies in response to recommendations.
                    10. 	A Unit periodically reviews its Memorandum of Understanding
                         (MOU) with the State Medicaid agency to ensure that it reflects
                         current practice, policy, and legal requirements.
                       a.	 The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that
                           it reflects current practice, policy, and legal requirements.
                       b.	 The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with
                           State Medicaid fraud control units,” and 42 CFR 455.23,
                           “Suspension of payments in cases of fraud.”
                       c.	 The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the Centers for Medicare
                           & Medicaid Services (CMS).
                       d.	 Consistent with Performance Standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                       e.	 The MOU incorporates by reference the CMS Performance
                           Standard for Referrals of Suspected Fraud from a State Agency to
                           a Medicaid Fraud Control Unit.
                  11. 	A Unit exercises proper fiscal control over Unit resources.
                       a.	 The Unit promptly submits to OIG its preliminary budget
                           estimates, proposed budget, and Federal financial expenditure
                           reports.
                       b.	 The Unit maintains an equipment inventory that is updated 

                           regularly to reflect all property under the Unit’s control. 

                       c.	 The Unit maintains an effective time and attendance system and
                           personnel activity records.
                       d.	 The Unit applies generally accepted accounting principles in its
                           control of Unit funding.
                       e.	 The Unit employs a financial system in compliance with the
                           standards for financial management systems contained in
                           45 CFR 92.20.




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)               23
                  12. 	A Unit conducts training that aids in the mission of the Unit.
                       a.	 The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that
                           is at least as stringent as required for professional certification.
                       b.	 The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                       c.	 Professional certifications are maintained for all staff, including
                           those that fulfill continuing education requirements.
                       d.	 The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and
                           as funding permits.
                       e.	 The Unit participates in cross training with the fraud detection staff
                           of the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State
                           Medicaid agency.




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                  24
                  APPENDIX C
                  Referrals of Provider Fraud and Patient Abuse and Neglect to
                  the Montana MFCU by Source, FYs 2010 Through 2012
                  Table C-1: Total MFCU Referrals of Fraud and Abuse Referrals and Annual
                  Average

                                                                                                                        Annual
                    Case Type                             FY 2010           FY 2011       FY 2012   3-Year Total
                                                                                                                       Average*
                    Patient Abuse and Neglect                      25            14            11             50               17
                    Provider Fraud                                 86           133           108            327              109
                     Total                                        111           147           119            377              126

                  Source: Montana Medicaid Fraud Control Unit (Unit) response to Office of Inspector General (OIG) data request.
                  *Averages in this table are rounded.

                  Table C-2: Unit Referrals, by Referral Source

                                            FY 2010                   FY 2011                 FY 2012
                                                 Abuse                     Abuse                   Abuse               Percentage
                    Referral
                                        Fraud       and           Fraud       and         Fraud       and   Total           of All
                    Source
                                                Neglect                   Neglect                 Neglect                Referrals
                    Private
                                            45             0         73               2      43         4     167             44.3
                    Citizens
                    Providers               14             3         24               3      20         0      64             17.0
                    State Medicaid
                                              8            4            8             0      11         1      32                  8.5
                    Agency–Other
                    Unit Hotline              0            0            1             0      20         0      21                  5.6
                    State Survey
                    and
                                              3            5            3             5       0         1      17                  4.5
                    Certification
                    Agency
                    Adult
                    Protective                1           11            4             0       0         0      16                  4.2
                    Services
                    Law
                                              6            0            6             0       2         2      16                  4.2
                    Enforcement
                    Other                     2            0            4             1       8         0      15                  4.0
                    Other State
                                              0            1            2             2       2         2          9               2.4
                    Agencies
                    State Medicaid
                    Agency–                   3            0            3             0       1         0          7               1.9
                    SURS
                    Private Health
                                              3            0            2             0       0         0          5               1.3
                    Insurers
                    OIG                       0            0            2             0       1         1          4               1.1
                    Long-Term
                    Care                      0            0            1             1       0         0          2               0.5
                    Ombudsman
                    Prosecutors               0            1            0             0       0         0          1               0.3
                    Provider
                                              1            0            0             0       0         0          1               0.3
                    Associations
                      Total                 86            25        133           14        108        11     377              100
                      Annual
                                                         111                     147                 119
                      Total
                      Annual
                                                                                                     126
                      Average*
                   Source: Unit response to OIG data request. 

                   *Average is rounded. 





Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                                                25
                  APPENDIX D
                  Investigations Opened and Closed by Provider Category and
                  Case Type, FYs 2010 Through 2012
                  Table D-1: Total Annual Opened and Closed Investigations

                                                                                                                           Annual
                   Case Type                        FY 2010          FY 2011       FY 2012       3-Year Total
                                                                                                                          Average*
                   Opened                                  28             39            36               103                   34
                      Patient Abuse and
                                                           14              7             5                  26                  9
                      Neglect
                      Provider Fraud                       14             32            31                  77                 26
                   Closed                                  12             38            31                  81                 27
                      Patient Abuse and
                                                            7             13             3                  23                  8
                      Neglect
                      Provider Fraud                        5             25            28                  58                 19

                  Source: Montana MFCU response to OIG data request.
                  *Averages in this table are rounded.



                  Table D-2: Total Investigations, by Case Type

                                                              FY 2010                    FY 2011                    FY 2012
                    Case Type
                                                         Opened        Closed       Opened         Closed        Opened     Closed
                    Patient Abuse and Neglect                   14             7             7         13             5          3
                    Provider Fraud                              14             5         32            25            31         28
                      Total                                     28         12            39            38            36         31

                  Source: Unit response to OIG data request.


                  Table D-3: Patient Abuse and Neglect Investigations


                    Provider Category                         FY 2010                    FY 2011                    FY 2012

                                                         Opened        Closed       Opened         Closed        Opened     Closed
                    Non-Direct Care                              2             1             2          4             3          2

                    Nurses/Doctors’ Assistants                  4              3             3          2             1          1

                    Nursing Facilities                          4              0             1          5             0          0
                    Other Long-Term Care
                                                                0              0             0          0             1          0
                    Facilities
                    Other                                       4              3             1          2             0          0

                      Total                                     14             7             7         13             5          3

                  Source: Unit response to OIG data request.




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                                                 26
                  Table D-4: Provider Fraud Investigations

                    Provider Category                       FY 2010                   FY 2011               FY 2012
                    Facilities                        Opened         Closed      Opened       Closed     Opened   Closed
                    Hospitals                                    0        0             2            3        2        2
                    Nursing Facilities                           1        0             3            2        0        1
                    Other Long-Term Care
                                                                 0        0             1            1        0        0
                    Facilities
                    Other                                        0        0             0            0        5        4
                    Practitioners                     Opened         Closed      Opened       Closed     Opened   Closed
                    Counselors/Psychologists                     1        1             4            4        1        0
                    Dentists                                     1        0             1            1        0        0
                    Doctors of Medicine or
                                                                 2        0             1            2        0        1
                    Osteopathy
                    Other                                        0        0             2            2        2        1
                    Medical Support                   Opened         Closed      Opened       Closed     Opened   Closed
                    Durable Medical
                                                                 0        0             2            1        2        2
                    Equipment Suppliers
                    Home Health Care
                                                                 0        0             1            1        1        0
                    Agencies
                    Home Health Care Aides                       6        3            11            4       15       11
                    Laboratories                                 0        0             0            0        1        1

                    Nurses/Doctors’ Assistants                   1        0             1            1        0        1

                    Pharmaceutical
                                                                 0        0             1            1        2        2
                    Manufacturers

                    Pharmacies                                   1        0             1            1        0        1

                    Transportation Services                      0        0             1            1        0        0
                    Other                                        1        1             0            0        0        1
                    Program Related                   Opened         Closed      Opened       Closed     Opened   Closed
                    All Programs*                                0        0             0            0        0        0
                      Total                                  14           5            32           25       31       28

                  Source: Unit response to OIG data request. 

                  *For example, managed care, Medicaid program administration, and billing companies.





Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                                       27
                  APPENDIX E
                  Case File Review Population, Sample Size Counts, and
                  Confidence Interval Estimates
                  Table E-1 shows population and sample counts and percentages by case
                  type. Note that both samples have percentages of case types similar to the
                  general population, though sample counts for some case types are very
                  small. Because of these small sample sizes, we cannot reliably generalize
                  what we found in our sample review to each case type in the population,
                  and only our overall estimates project to the population of all case files.
                  We estimated the 4 population values for all 105 case files from the results
                  of our review of the case files selected in our simple random samples.
                  Table E-2 includes the estimate descriptions, sample sizes, point estimates,
                  and 95-percent confidence intervals for these four estimates.

                  Table E-1: Population and Sample Size Counts for Case Types
                                                       Population Count              Sample Count*            Sample Count*
                    Case Type
                                                         and (%) n=105                and (%) n=55             and (%) n=35

                    Closed                                       79 (75%)                    47 (85%)              28 (80%)

                    Open                                         26 (25%)                     8 (15%)               7 (20%)




                    Civil                                          4 (4%)                      2 (4%)                2 (6%)

                    Criminal                                   101 (96%)                     53 (96%)              33 (94%)




                    Global                                         4 (4%)                      2 (4%)                2 (6%)


                    Patient Abuse/Neglect                        26 (25%)                    13 (23%)               9 (26%)

                    Provider Fraud                               75 (71%)                    40 (73%)              24 (68%)

                  Source: The Montana MFCU provided a list of all case files open during FYs 2010 through 2012.
                  *OIG generated this random sample.




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                                          28
                  Table E-2: Confidence Intervals for Key Case File Review Data
                                                                           Point   95-Percent Confidence
                    Estimate Description          Sample Size
                                                                        Estimate                 Interval
                    Case Files With
                    Documented Supervisory                    55           94.5%              87.6–97.1%
                    Approval for Opening
                    Case Files With
                    Documented Supervisory                    47           59.6%              49.4–69.6%
                    Approval for Closing
                    Case Files With No
                    Documentation Of at
                                                              55           61.8%              51.5–70.9%
                    Least One Supervisory
                    Review
                    Case Files With No
                    Documentation Of
                                                              55           65.4%              55.3–74.8%
                    Periodic Supervisory
                    Reviews




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)                        29
                  APPENDIX E
                  Unit Comments




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)   30
                      Mr. Stuart Wright, Deputy Inspector General for Evaluation and Inspections
                      Department of Health and Human Services, Office oflnspector General
                      August 27,2013 

                      Page2 


                      MFCU with the Data Bank was completed on May 1, 2013. Convictions are now being
                      reported to the Data Bank in the manner required, i.e., within 30 days following conviction.
                      (Prior convictions were also "caught up" and reported to that agency.) The policy manual
                      was amended to reflect the unit director's responsibility to make those notifications.

                             -The third recommendation was that the SURS/MFCU Memorandum of
                     Understanding (MOU) needed to be revised to reflect current law and practice. The final
                     draft of the updated MOU wa~ completed and signatures were obtained from the
                     administrator and attorney of the state's Medicaid program and from the administrator of
                     the MT Division of Criminal Investigation (of which the MFCU is a part) and by the
                     MFCU prosecutor.

                             -The fourth and final recommendation was that the MFCU consistently adhere to
                     the MOU with SURS. That recommendation included cross-training between the two units.
                     We have set up a training plan between the MFCU and SURS to bring us into conformity
                     with the MOU.

                     The timeline for the recommendations is as follows:

                             The first, second, and third recommendations have already been implemented. The
                     fourth recommendation regarding cross-training with the MT DPHHS SURS will
                     commence in November 2013 and will be occurring quarterly beginning in January 2014.

                     Thank you for the work of the onsite team. Please let me know if you have any questions;
                     my direct telephone number is (406) 444-4606 and my email contact is dfosket@mt.gov.


                     Sincerely,

                         /S/
 +'                  Debrah Foskct, Director
                     Medicaid Fraud Control Unit
                     Montana Division of Criminal Investigations

                     Cc: MT Attorney General Tim Fox
                         MT Division of Criminal Investigations Administrator Bryan Lockerby




Montana State Medicaid Fraud Control Unit; 2012 Onsite Review (OEI-09-12-00700)                                      31
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Timothy S. Brady, Regional
                  Inspector General for Evaluation and Inspections in the San Francisco
                  regional office, and Michael Henry, Deputy Regional Inspector General.
                  Matthew DeFraga served as the lead analyst for this study. Other Office
                  of Evaluation and Inspections staff who provided support include
                  Rosemary Rawlins. Central office staff who provided support include
                  Susan Burbach, Kevin Farber, Christine Moritz, and Sherri Weinstein.
                  Office of Investigations staff who provided support include Bill Kennedy.




Montana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00700)          32
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
